GENERAL SERVICES ADMINISTRATION
   OFFICE OF INSPECTOR GENERAL



                   Recovery Act Report –
         Thurgood Marshall U.S. Courthouse Project
    Audit of PBS’s Major Construction and Modernization
       Projects Funded by the American Recovery and
                  Reinvestment Act of 2009
             Audit Number A090172/P/R/R11012

                      August 19, 2011
Date:               August 19, 2011

Reply to            R. Nicholas Goco
Attn of:            Deputy Assistant Inspector General
                    For Real Property Audits (JA-R)

Subject:            Recovery Act Report – Thurgood Marshall U.S. Courthouse Project
                    Audit of PBS’s Major Construction and Modernization Projects Funded by the
                    American Recovery and Reinvestment Act of 2009
                    Audit Number A090172

To:                 Robert A. Peck
                    PBS Commissioner, Public Buildings Service (P)

As part of our oversight of the General Services Administration’s American Recovery and
Reinvestment Act (Recovery Act) projects, we noted contracting violations related to Option 2 of
the Construction Manager as Constructor (CMc) contract for the Thurgood Marshall U.S.
Courthouse (Thurgood Marshall) project that we believe warrant your attention. Specifically,

       •   The Public Buildings Service’s (PBS) exercise of Option 2 for construction phase
           services violated Federal Acquisition Regulation (FAR) and Competition in Contracting
           Act of 1984 (CICA) requirements and represents a cardinal change to the contract; and

       •   PBS did not adequately establish fair and reasonable pricing before exercising Option 2.


Exercise of Construction Option 2 Does Not Meet FAR and CICA Competition
Requirements

PBS exercised Option 2 of the CMc contract for the Thurgood Marshall project for a firm-fixed
price of $201.9 million; $75.0 1 million more than the $126.8 million guaranteed maximum price
(GMP) established for the option at contract award. This effectively made the option a sole
source procurement in violation of both FAR and CICA requirements. In addition, a price
increase of this magnitude represents a cardinal change to the contract.

PBS awarded the Thurgood Marshall CMc contract in January 2007. This type of contract is
initially awarded for design phase services at a firm-fixed price with an option for construction
phase services at a GMP that is established at contract award. The GMP acts as a ceiling price
for the actual construction phase services. The proposed GMP should be evaluated in
1
    Difference due to rounding.
                                                   1
conjunction with the pricing for the design services for the award to be made in accordance with
FAR 52.217-5. The Thurgood Marshall contract included preconstruction phase services at a
firm-fixed price of $120,000, and two options for construction phase services: Option 1 for bulk
demolition and exterior closure repairs; and Option 2 for mechanical, electrical, plumbing, and
interior construction work. Option 1 was offered at a firm-fixed price of $42.2 million; Option 2
at a GMP of $126.8 million. The winning CMc firm was not the highest technically qualified
bidder on the project, but its total price proposal was nearly $14.5 million (10 percent) lower
than that of the highest technically qualified firm. Since the technical scores were close (within 5
percent), PBS awarded to the lower-priced firm on a best value basis.

Six months after contract award, at 90 percent design completion, the CMc contractor submitted
a revised construction cost estimate for $188.6 million. 2 This estimate was $61.8 million more
than the established GMP and $47.2 million more than the GMP proposed by the highest
technically qualified firm. PBS later requested a firm-fixed price proposal for Option 2, in
response to which the contractor submitted a proposal with a base bid of $255.4 million and a
total evaluated price of $295.1 million. PBS attributed a vast majority of the cost increase to
drastically changing market conditions, and considered re-competing Option 2.

PBS eventually determined that re-competing the option was not feasible due to schedule and
cost implications. The contracting officer estimated that a new procurement would have taken
approximately eight months, plus an additional four months for a new contractor to duplicate the
existing contractor’s efforts to date. This additional year would have resulted in substantially
increased costs, including rent for the Courts’ swing space and lost rent revenue at Thurgood
Marshall. Further, the existing CMc contractor was already working in the building and was
“intimately familiar” with the project. PBS ultimately exercised Option 2 in April 2009, when
Recovery Act funds became available, for a firm-fixed price of $ 201.9 million. 3

In exercising the option in this manner, PBS effectively converted it into a sole source
procurement since PBS negotiated only with the CMc contractor. As a result, PBS violated the
competition requirements of both FAR and CICA which mandate full and open competition in
government procurements unless otherwise expressly authorized by statute. 4 Agencies may use
noncompetitive procedures only when certain conditions are met, and must document a
justification 5 for the use of these procedures. PBS prepared a Findings and Determination that
documented the project schedule and cost considerations that led to its decision to exercise the
option; however, the rationale provided is not one of the allowable circumstances described by
FAR 6.302. 6

In addition, the $75.0 million price increase over the $126.8 GMP raised the costs for Option 2
construction phase work by 59 percent. While there were no significant changes to the scope,

2
  This estimate was reconciled in August 2007 to $169.0 million.
3
  Option 2 was exercised via Modifications PO72, PO73, and PO74 on April 15, 2009, with a base bid of $201.9
million and total evaluated price of $233.0 million.
4
  FAR Subpart 6.1 – Full and Open Competition.
5
  The General Services Acquisition Manual 536.270 specifies that before an unpriced option can be exercised, the
agency must cite the statutory authority permitting the use of other than full and open competition.
6
  FAR 6.302 - Circumstances permitting other than full and open competition.
                                                       2
magnitude, or type of work contemplated under the original contract, a price increase of this
degree amounts to a cardinal change to the CMc contract. As such, PBS should have re-
competed the option or provided a valid justification for using non-competitive procedures.


PBS’s Determination That Option 2 Pricing is Fair and Reasonable is Inadequate

PBS did not sufficiently establish fair and reasonable pricing before exercising Option 2 for
construction phase services. PBS based its pricing determination on two factors: a comparison
of proposed pricing to a March 2009 Government estimate and competition in the CMc
contractor’s subcontracting process. However, the estimate used in this case did not qualify as
an independent government estimate, and competition at the subcontractor level does not meet
FAR requirements for establishing price reasonableness.

To establish price reasonableness, PBS appears to have relied principally on a comparison of the
proposed Option 2 price to a March 2009 Government estimate. PBS found that the proposed
price of $201,903,657 was reasonable since it was only 7 percent higher than the Government
estimate of $188,477,747. 7 However, the estimate used was based on a construction estimate
developed by a professional estimator hired by the project’s design firm. GSA guidelines require
that Government estimates not be influenced by input from either the design firm or the CMc
contractor. Accordingly, the requirements for an independent government estimate were not met.

PBS also relied on the CMc contractor’s subcontractor competition as a basis for establishing
price reasonableness. FAR 15.404-1 indicates that adequate price competition normally
establishes a fair and reasonable price. However, due to the manner in which PBS exercised this
construction option, there was no price competition at the CMc level. Instead, price competition
was limited to the subcontractor level, which does not meet the FAR competition requirements.

Further, PBS did not verify the proposed subcontractor costs upon which the CMc contractor’s
proposal was based before exercising the option. Instead, the contract modifications exercising
Option 2 incorporate a clause stating that, “final negotiation of this Option is subject to
adjustments based on an audit by the Office of Inspector General for Auditing.” 8 PBS
contracting officials stated that this “subject to audit” clause was inserted so that PBS could
exercise the option and subsequently adjust the option price based on actual subcontractor costs.
However, PBS exercised the option on a firm-fixed price basis instead of at a GMP, and the FAR
does not permit changing pricing for firm-fixed price contracts. FAR 16.202-2– Fixed-Price
Contracts states that a firm-fixed price contract is suitable when the contracting officer can
establish fair and reasonable prices at the outset. Further, a firm-fixed price contract provides for
a price that is not subject to any adjustment on the basis of the contractor’s cost experience in
performing the contract. As such, the FAR does not permit the contracting officer to renegotiate
the price for a firm-fixed price contract retroactively.



7
 $182,477,747 plus $6.0 million for allowances.
8
  On May 14, 2009, PBS asked the GSA OIG to audit the contractor’s subcontractor procurement procedures to
ensure there was adequate and fair competition for Option 2.
                                                    3
Conclusion

PBS contracting staff inappropriately exercised Option 2 of the CMc contract for the Thurgood
Marshall U.S. Courthouse Project. As exercised, this option for construction services exceeded
the agreed-upon GMP by $75.0 million. In effect, the option is a sole source procurement that
does not satisfy FAR and CICA competition requirements and represents a cardinal change to the
contract. Further, the contracting officer did not provide adequate assurance that agreed-upon
prices were fair and reasonable. Consequently, the Government is unnecessarily exposed to
considerable financial risk.


Recommendations

We recommend that the Commissioner of the Public Buildings Service:

   1) Ensure that controls are in place to prevent PBS from exercising CMc construction
      options at firm-fixed prices that exceed the agreed-upon Guaranteed Maximum Price; and

   2) Ensure that firm-fixed price contracts are negotiated in final prior to award, rather than
      subject to retrospective pricing adjustments based on post-award audits by the GSA
      Office of Inspector General.


Management Comments

In its response to the draft report, PBS concurred with the OIG findings and accepted the report
recommendations. PBS’s response is included in its entirety as Attachment A to this report.


We appreciate the support that has been provided to us throughout this audit. If you have any
questions about this memorandum, please contact me at (202) 219-0088.


Sincerely,


R. Nicholas Goco
Deputy Assistant Inspector General for Real Property Audits (JA-R)




                                               4
                  Recovery Act Report –
           Thurgood Marshall Courthouse Project
   Audit of PBS’s Major Construction and Modernization
Projects Funded by the American Recovery and Reinvestment
                        Act of 2009
                  Audit Number A090172

                 Management Comments




                          A-1
                  Recovery Act Report –
           Thurgood Marshall Courthouse Project
   Audit of PBS’s Major Construction and Modernization
Projects Funded by the American Recovery and Reinvestment
                        Act of 2009
                  Audit Number A090172




                          A-2
                                 Recovery Act Report –
                          Thurgood Marshall Courthouse Project
                  Audit of PBS’s Major Construction and Modernization
               Projects Funded by the American Recovery and Reinvestment
                                       Act of 2009
                                 Audit Number A090172

                      Background, Objective, Scope and Methodology


Background

The American Recovery and Reinvestment Act of 2009 (Recovery Act) provides the General
Services Administration (GSA) with $5.55 billion for the Federal Buildings Fund to convert
federal buildings into High-Performance Green Buildings as well as to construct federal
buildings, courthouses, and land ports of entry. The Recovery Act mandated that $5.0 billion of
the funds must be obligated by September 30, 2010, and that the remaining funds be obligated by
September 30, 2011. The GSA Office of Inspector General (OIG) is conducting oversight of the
projects funded by the Recovery Act.

On January 17, 2007, PBS awarded Contract No. GS-02P-05-DTC-0021(N) for the infrastructure
upgrade of the Thurgood Marshall U.S. Courthouse (Thurgood Marshall) in New York City.
This Construction Manager as Constructor (CMc) contract was awarded prior to the passage of
the Recovery Act, and consists of a base contract for preconstruction services and two options
for construction phase services: Option 1 for bulk demolition and exterior closure repairs and
Option 2 for mechanical, electrical, plumbing, and interior construction work. Option 1 was
exercised on March 28, 2007, for a firm-fixed price of $35.6 million and substantially completed
on January 14, 2009. Option 2 was exercised on April 15, 2009, at a firm-fixed price of $201.9
million. Of this amount, $64 million is funded by the Recovery Act. The project has a scheduled
completion date of May 31, 2012.

Objective

The objective of the OIG’s Recovery Act oversight is to determine if PBS is planning, awarding,
and administering contracts for major construction and modernization projects in accordance
with prescribed criteria and Recovery Act mandates. The work for this report was performed
while evaluating Option 2 of the construction contract for the Thurgood Marshall U.S.
Courthouse project.

Scope and Methodology

To accomplish the objective we conducted fieldwork in the Northeast Caribbean Region,
reviewed the contract file and other pertinent project documents, met with project staff, and
reviewed applicable guidance and regulations.



                                              B-1
Except as noted below, we conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

The planning for this audit is based on the audit plan for oversight of the Recovery Act projects
as well as audit guidance being applied to all Recovery Act projects. A separate guide was not
prepared for this project.

As this work was performed under the continuing oversight of all GSA Recovery Act projects,
management controls are currently under assessment. Only those management controls discussed
in the report have been assessed.




                                               B-2
                                 Recovery Act Report –
                          Thurgood Marshall Courthouse Project
                  Audit of PBS’s Major Construction and Modernization
               Projects Funded by the American Recovery and Reinvestment
                                       Act of 2009
                                 Audit Number A090172

                                      Report Distribution


Commissioner, Public Buildings Service (P)

Regional Commissioner, Public Buildings Service (2P)

Director, Internal Control and Audit Division (BEI)

Assistant Inspector General for Auditing (JA, JAO)

Special Agent in Charge (JI-2)

Regional Inspector General for Audits (JA-2)

Assistant Inspector General for Investigations (JI)




                                               C-1
